                                                                                        ICN 31170-23-171

..




                                                Office of the Inspector   General
     MEMORANDUM
     Date:   June   19 , 2001                                                           Refer To:
             Larry G. Massanari
     To:     Acting Commissioner

              of Social    Security


             Inspector General


     Subject: Assessment      of the Hearings   Process   Improvement     Plan Phase 1 (A-O6-00-20051   )



             The attached final report presents the results of our evaluation.   Our objective was to
             obtain employee assessments     of the results of the Office of Hearings and Appeals
             implementation  of Phase 1 of the Hearings Process Improvement         Plan.


             Please comment within 60 days from the date of this memorandum on corrective action
             taken or planned on each recommendation. If you wish to discuss the final report,
             please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
             General for Audit, at (410) 965-9700.




                                                                                                )
             Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



 SOCIAL SECURITY ADMINISTRATION


       ASSESSMENT OF THE
       HEARINGS PROCESS
       IMPROVEMENT PLAN
            PHASE 1

   June 2001      A-06-00-20051




EVALUATION REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary

OBJECTIVE
Our objective was to obtain employee assessments of the results of the Office of
Hearings and Appeals (OHA) implementation of Phase 1 of the Hearings Process
Improvement Plan (HPI).

BACKGROUND

OHA expects that requests for hearings will increase markedly starting in Fiscal Year
2001 due to the elimination of reconsideration determinations, the growing Medicare
workload, and an aging population. The HPI initiative is a plan to make OHA more
productive by reducing the amount of processing time for hearings. HPI also seeks to
increase quality and productivity, promote individualized case management, and
increase employee job satisfaction. To this end, OHA is changing the structure and
operations of its hearing offices (HO) with a New Hearings Office Process (New
Process). HPI was rolled out to OHA’s HOs in three phases. Thirty-seven of the
139 offices were selected to participate in Phase 1, which began on January 3, 2000.
Approximately one-half of the remaining HOs implemented HPI in Phase 2 in October
2000. Phase 3 included all remaining HOs and was implemented in November 2000.

The New Process results from findings made by an interdisciplinary workgroup, a study
by Booz-Allen & Hamilton, Inc., and from HO suggestions and best practices. This
combined process revealed lengthy delays at the front end of case processing—
between the date a hearing is requested and the date it is held. Obstacles hindering
efficient case processing include: sub-optimal case screening and tracking systems;
inadequate pre-hearing analysis and development; lack of accountability; duplication of
effort; and uneven workloads among staff.

The New Process is intended to represent a permanent solution to OHA's workload
issues. It includes the establishment of new positions, workgroups, new and enhanced
reports, and features such as development and locator calendars and benchmarks for
how long cases should stay at each step of the process. A major change is the
establishment of processing groups into manageable, self-contained working units.
Each processing group staff would work and coordinate support to approximately four
Administrative Law Judges (ALJ). This would allow work performed by ALJs to be
shared by the processing group staff.

For September 2000, OHA reported that processing time in HPI offices for all cases,
including Social Security Administration (SSA) and Medicare cases, was down by
47 days or 15 percent from the processing time reported in September 1999. For the
same month in non-HPI offices, OHA reported a decrease in processing time of 46 days
or 14 percent during the same period. For the period May through September 2000,
OHA reported a decrease in processing time of 26 days or 8 percent when compared to


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)             i
the cumulative figures for May through September 1999. For the same time period for
non-HPI offices, processing time was down 35 days. We did not verify the accuracy or
evaluate the significance of numbers reported by OHA.

RESULTS OF REVIEW
Our survey results show that OHA has an experienced workforce that was trained
before and after the HPI Phase 1 implementation, and that employees have an
understanding of what is expected of them. Our survey results also show that
employees expressed some concerns with the transition:

   •   about one third of the non-managers did not consider the training helpful;

   •	 some HOs started Phase 1 later than January which delayed their use of the new
      processes;

   •	 employees expressed a need for additional staff; some HOs had not adopted all
      parts of the HPI plan;

   •   the use of standing orders or instructions from ALJs was not consistent; and

   •	 some employees expressed a concern that the new process was not being used
      effectively.

Efforts to achieve the goals established by HPI, that is, improve quality and productivity,
increase employee job satisfaction, and promote case processing, have begun but need
time to be realized. During Phase 1, our survey found that employees expressed a view
that the quality of service was worse than before and that processing efficiency was
suffering. Also, employees were generally dissatisfied with the HPI plan and felt that job
satisfaction was low.

CONCLUSIONS AND RECOMMENDATIONS
The survey results and employee comments highlighted areas that may need
improvement during full implementation of the HPI plan. These areas include staffing,
training, and ALJ instructions. Improvements are also needed in the staff's perception
of quality of service, processing efficiency and job satisfaction. To make HPI
successful, staff have to believe that the New Process will bring about improvements.
To promote improvements, we recommend that SSA:

   •   Establish a timeframe by which HOs should implement all parts of the HPI Plan.

   •	 Reassess training needs for non-managers and ensure they have an adequate
      understanding of OHA's expectations under HPI.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)              ii
   •	 Re-evaluate the staffing needs for technicians and clerical staff within each HO to
      maximize productivity.

   •	 Perform an evaluation of standing orders, or the lack of standing orders, in each
      office to ensure employees have clear and uniform instructions from ALJs within
      each processing group.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. (See
Appendix H for SSA’s comments.)




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           iii
                                                                         Table of Contents

                                                                                                                           Page


INTRODUCTION ............................................................................................................. 1


RESULTS OF REVIEW................................................................................................... 3


    Organizational Efficiency and Productivity ................................................................. 3


    •         Workforce ........................................................................................................ 3

    •         Training ...........................................................................................................3

    •         Understanding of Expectations........................................................................ 4

    •         Target Date Implementation ............................................................................ 4

    •         Perceived Needs with Which to Meet Production Goals.................................. 5

    •         GS Assistance to Staff as Part of the HPI Plan ............................................... 5

    •         Full Implementation of HPI Plan ...................................................................... 6

    •         Standing Orders ..............................................................................................6


    Quality and Productivity.............................................................................................. 7


    •         Quality of Service ............................................................................................ 7

    •         Efficiency of Processing ..................................................................................7

    •         Benchmarks are Used to Manage Workload ................................................... 7


    Employee Job Satisfaction ......................................................................................... 8


    •         Overall Satisfaction with the HPI Plan ............................................................. 8

    •         Perceived Job Satisfaction Within HOs ........................................................... 8

    •         Individual Morale Under HPI............................................................................ 8


    Case Processing ........................................................................................................8


    •         Receipt, Case Assignment, and Screening ..................................................... 8

    •         Pre-Hearing Analysis and Development.......................................................... 9

    •         Scheduling Hearings .......................................................................................9

    •         Post Hearing Activity ..................................................................................... 10


CONCLUSIONS AND RECOMMENDATIONS ............................................................. 11


APPENDICES


APPENDIX A – New Process Office Structure


APPENDIX B – List of the 37 Hearing Offices Included in Phase 1


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
APPENDIX C – Survey Questions


APPENDIX D – Number of Employees by Position Type Who Responded to Our Survey


APPENDIX E – Survey Results for the First 17 Questions


APPENDIX F – Percentage of OHA Phase 1 Work Force Years of Experience


APPENDIX G – Selected Employee Comments


APPENDIX H – Agency Comments


APPENDIX I – OIG Contacts and Staff Acknowledgments





Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                                        Acronyms

     AA                 Attorney Adviser


     ALJ                Administrative Law Judge


     CT                 Case Technician


     FY                 Fiscal Year


     GS                 Group Supervisor


     HO                 Hearing Office


     HOCALJ             Hearing Office Chief Administrative Law Judge


     HOD                Hearing Office Director


     HOSA               Hearing Office Systems Administrator


     HOTS               Hearing Office Tracking System


     HPI                Hearings Process Improvement


     LCT                Lead Case Technician


     MSA                Management Services Assistant


     OHA                Office of Hearings and Appeals


     OTR                On-the-Record


     PA                 Paralegal Analyst


     SAA                Senior Attorney Adviser


     SSA                Social Security Administration


     SCT                Senior Case Technician





Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                                          Introduction

OBJECTIVE
Our objective was to obtain employee assessments of the results of the Office of
Hearings and Appeals (OHA) implementation of Phase 1 of the Hearings Process
Improvement Plan (HPI).

BACKGROUND
OHA expects that requests for hearings will increase markedly starting in Fiscal Year
(FY) 2001 due to the elimination of reconsideration determinations, the growing
Medicare workload, and an aging population. The HPI initiative is a plan to make OHA
more productive by reducing the amount of processing time for hearings. It also seeks
to increase quality and productivity, promote individualized case management, and
increase employee job satisfaction. To this end, OHA is changing the structure and
operations of its Hearing Offices (HO) with a New Hearings Office Process (New
Process).

The New Process results from findings made by an interdisciplinary workgroup, a study
by Booz-Allen & Hamilton, Inc.,1 and from HO suggestions and best practices. This
combined process revealed lengthy delays at the front end of case processing—
between the date a hearing is requested and the date it is held. Obstacles hindering
efficient case processing include: sub-optimal case screening and tracking systems;
inadequate pre-hearing analysis and development; lack of accountability; duplication of
effort; and uneven workloads among staff.

The New Process includes the establishment of new positions, workgroups, new and
enhanced reports, and features, such as development and locator calendars and
benchmarks for how long cases should stay at each step of the process. A major
change in the New Process is the establishment of processing groups into manageable,
self-contained working units. See Appendix A for the New Process Office Structure.
The staff of each processing group will work and coordinate support to approximately
four Administrative Law Judges (ALJ). Processing groups will allow work performed by
ALJs to be shared by the processing group staff. Processing groups consist of Attorney
Advisers (AA), Paralegal Analysts (PA), Lead Case Technicians (LCT), Senior Case
Technicians (SCT), and Case Technicians (CT). At least one Senior Attorney Adviser
(SAA) is attached to the processing group.

HPI was rolled out to OHA’s HOs in three phases. Thirty-seven of the 139 offices were
selected to participate in Phase 1, which began on January 3, 2000. Approximately

1
 The findings of the interdisciplinary workgroup and Booz-Allen & Hamilton, Inc. were included in the
commissioner's report: The Hearing Process Improvement Initiative Delivering Better Service for the
  st
21 Century, August 1999.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                             1
one-half of the remaining HOs implemented HPI in Phase 2 in October 2000. Phase 3
included all remaining HOs and was implemented in November 2000.

For September 2000, OHA reported that processing time in HPI offices for all cases,
including Social Security Administration (SSA) and Medicare cases, was down by
47 days or 15 percent from the processing time reported in September 1999. For the
same month in non-HPI offices, OHA reported a decrease in processing time of 46 days
or 14 percent during the same period. For the period May through September 2000,
OHA reported a decrease in processing time of 26 days or 8 percent when compared to
the cumulative figures for May through September 1999. For the same period for non-
HPI offices, processing time was down 35 days. We did not verify the accuracy or
evaluate the significance of numbers reported by OHA.

SCOPE AND METHODOLOGY
We surveyed all 37 offices included in Phase 1. See Appendix B for the list of Phase 1
offices. The surveys consisted of 17 questions common to all employees plus
additional questions directed to the following positions: Hearing Office Chief
Administrative Law Judges (HOCALJ); Hearing Office Directors (HOD); Group
Supervisors (GS); ALJs; AAs; LCTs; SCTs; and CTs. Our questionnaire is included as
Appendix C.

To distribute our surveys, we requested that OHA’s central office email the surveys to
the 37 offices. We submitted our survey request at the end of July 2000 and submitted
a follow-up request 3 weeks later to employees who had not responded. Our surveys
were sent to 1,326 employees in the 37 Phase 1 HOs. Of this number, 609 completed
and returned the surveys to us (a 45.93 percent response rate). We received
responses from each of the 37 offices. See Appendix D for the number of responses by
position. The information contained in this report is based on the responses from
managers and non-managers who completed and returned the survey questionnaires.
Because the surveys were submitted anonymously, we could not verify that surveys
were completed by individuals associated with their respective positions.

To augment our understanding of HPI, we attended the New Process Orientation in
Dallas, Texas during June 2000. We also reviewed a SSA report,2 the Hearing Process
Improvement Plan April 2000, and OHA's New Process Office Structure, HPI Process
Flowchart, and HPI Training Guides.

We conducted our review between July and December 2000. The entity reviewed was
OHA under the Deputy Commissioner for Disability and Income Security Programs. We
performed our evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




2                                                                                st
    The Hearing Process Improvement Initiative Delivering Better Service for the 21 Century, August 1999.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                             2
                                                     Results of Review

Our survey results show that OHA has an experienced workforce that was trained
before and after the HPI Phase 1 implementation, and that employees have an
understanding of what is expected of them. Our results also show that employees
expressed some concerns with the transition:

   •   about one-third of the non-managers did not consider the training helpful;

   •	 due to outside barriers, some HOs started Phase 1 later than January, which
      delayed their use of the new processes;

   •	 employees expressed a need for additional staff; some HOs had not adopted all
      parts of the HPI plan;

   •   the use of standing orders or instructions from ALJs was not consistent; and

   •	 some employees expressed a concern that the new process was not being used
      effectively.

Efforts to achieve the goals established by HPI, that is, improve quality and productivity,
increase employee job satisfaction and promote case processing, have begun but need
time to be realized. During Phase 1, employees expressed a view that the quality of
service was worse than before and that processing efficiency was suffering. Also,
employees were generally dissatisfied with the HPI plan and felt that job satisfaction
was low. Appendix E summarizes the responses for the first 17 questions.

ORGANIZATIONAL EFFICIENCY AND PRODUCTIVITY

Workforce

OHA has an experienced workforce and 97.5 percent of the employees were with OHA
since the beginning of HPI. Of the managers (HOCALJs, HODs, and GSs),
81.2 percent had at least 5 years of experience. Of the non-managers, 75.7 percent
had at least 5 years of experience (see Appendix F, page F-1).

Training

Most employees received HPI training before HPI was implemented. In all,
96.4 percent of the respondents received HPI training; 89.7 percent completed the
training before HPI was implemented in their offices. Managers found the training more
helpful than non-managers. While 63.1 percent of the managers considered the training
helpful or very helpful, only 30.5 percent of the non-managers agreed. More managers




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)               3
(96.3 percent) than non-managers (88.6 percent) received the training before HPI
started in their offices. Of the non-managers, 37.2 percent stated that the training was
not helpful (see Appendix F, page F-2).

Forty-one percent of all respondents said they needed other types of training as follows:

   •   26 percent need software training;

   •   15 percent need training related to their position description; and

   •   9 percent need Hearing Office Tracking System training.

More than 11 percent of the respondents replied that they needed training in other
areas. We tallied the count of “other” training by category for the type of training cited
most often. Based on this tally, the categories most frequently identified under “other”
were:

   •   Document Generation System,

   •   Customer Identification Control System,

   •   Case Development,

   •   Workflow,

   •   Master Docket and Management/Leadership training, and

   •   Fee Petition and additional HPI training.

Understanding of Expectations

Employees generally expressed an understanding of OHA's expectations for the HO
under HPI. Additionally, the percentage of non-managers who rated their
understanding as high was substantially lower than the response rate for managers.
Of the managers, 86.9 percent rated their understanding as high. Of the non-
managers, 53.5 percent rated their understanding as high. In addition, 18.2 percent of
the non-managers rated their understanding of OHA's expectations as low (see
Appendix F, page F-3).

Target Date Implementation

Although the scheduled date for implementing Phase 1 of the HPI plan was January 3,
2000, only 22 offices stated that they started HPI in January. Ten HOs started after




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                  4
January. Several regions were not able to implement HPI as scheduled due to
labor/management-relation agreements. We were unable to determine when the
remaining 5 HOs implemented HPI.

                             Table 1: Phase 1 Implementation
  Month Phase 1 Started        January      February      March         April      July
    Number of HOs                22            3            2            4          1

Perceived Needs with Which to Meet Production Goals

We asked employees to tell us what would be needed if production goals were not met.
Most frequently, a need for additional staff was cited as the greatest need. Case pulling
assistance was the second most frequent response, and a need for overtime was the
third most frequent expressed need (see Appendix F, page F-4).

The two top staffing positions listed as most needed were CTs (including LTs and
SCTs), 64.9 percent; and clerical, 41.7 percent. Managers and non-managers provided
consistent responses concerning staff needs although more managers cited a need for
ALJs (see Appendix F, page F-5). Some employees provided written comments
describing situations within their respective offices that may explain the need for
additional staff (see Appendix G, page G-1).

GS Assistance to Staff as Part of the HPI Plan

According to the HPI Plan, the GS is expected to perform all AA and PA functions as
necessary and supervise all members of the group, except the SAA. Over half
(51 percent) of the GSs stated that they perform duties of the AAs or the PAs. In
addition, 58 percent responded that they perform duties of the LCT, SCT, or CT. As
shown in Table 2, GSs felt that performing these duties does hinder their day-to-day
management and operation of the group.

              Table 2: Degree of Hindrance in Performing Other Duties

       Position Work was              Hindered or Very          Not Very Hindered or Not
          Performed                      Hindered                    Hindered At All
   AA or PA                             8 (40 percent)                6 (30 percent)
   LCT, SCT or CT                      12 (55 percent)                4 (18 percent)

Although hindered, several GSs stated that helping the employees in their group
resulted in a positive effect on their offices. Such assistance helped to meet their
production goals. The primary reason given for helping to complete the work of
members of the group was a shortage in staff. The LCT, SCT and/or CT positions were
specifically mentioned. Again, this supports the employee opinion that if production
goals are not met, increased staffing levels are needed especially for technicians and
clerical staff.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                5
Full Implementation of HPI Plan

Fifteen (63 percent) of the 24 HOCALJs that responded said all parts of the HPI plan
had been adopted. Six (25 percent) HOCALJs said the following parts of the plan had
not been adopted or were not fully implemented:
       Not Adopted

       � Pre-hearing conferences3

       � Scheduling component

       � Centralized scheduling unit

       � Office-wide rotation on the master docket

       � ALJ case review before scheduling a hearing

       Not Fully Implemented

       � Pre-analysis certification

       � Some of the pre-hearing development


Standing Orders

General standing orders are instructions developed by the consensus of all the ALJs in
an office or a cadre of ALJs within a given processing group. These instructions are
provided to the staff to standardize the development of a case. Specific standing orders
are instructions to the staff that meet the particular preference of an individual ALJ in
developing a case. Specific standing orders may be developed in place of, or in
addition to, general standing orders. With respect to the use of standing orders, 19 of
the 24 HOCALJs who responded (79 percent) stated that their offices used general
standing orders, and 15 used specific standing orders (63 percent). Thirteen HOs
follow both general and specific orders and three HOs do not have standing orders.

Concerning the helpfulness of standing orders, 24 of 38 GSs (63 percent) stated that
the standing orders were helpful or very helpful. About one-third of LCTs, SCTs and
CTs combined considered the standing orders helpful or very helpful. With respect to
those who did not find the standing orders helpful, the AAs and CTs had the highest
percentages with 23 percent and 21 percent, respectively.




3
 Regulations allowing SAAs to conduct a formal pre-hearing conference are not expected to be effective
until later this year.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                              6
                             Helpfulness of Standing Orders
                                     (Percentages)
                        Helpful or                        Not Helpful or         Not
       Position        Very Helpful        Neutral        Very Helpful        Applicable
      GS                    63                18                11                8
      AA                    20                23                23               35
      LCT                   34                30                13               23
      SCT                   38                22                16               24
      CT                    25                17                21               38

Except for the GSs, from 23 to 38 percent of the employees said that standing orders
were not applicable. We were unable to determine whether the response "not
applicable" meant that employees did not have standing orders or if it meant that they
had standing orders but did not follow them. Some employees expressed frustration
relative to the use of standing orders in comments returned with the questionnaire (see
Appendix G, page G-1 for employee comments).

QUALITY AND PRODUCTIVITY

Quality of Service

Employees were split on whether the quality of service was better or worse than before.
Non-managers generally felt that the quality of service was worse (46.3 percent) while
35.7 percent of the managers felt that the quality of service was better. Still,
23.8 percent of the managers also considered the quality of service as worse while only
14.9 percent of the non-managers considered the quality of service as better (see
Appendix F, page F-6).

Efficiency of Processing

As with quality of service, more non-managers (69 percent) than managers
(40.2 percent) viewed the efficiency of processing as worse. However, even among
managers, more managers felt that the efficiency of processing was worse compared to
the 34.2 percent who considered it better (see Appendix F, page F-7).

Benchmarks are Used to Manage Workload

The HPI Process Training Guide includes FY 2000 target benchmarks for four stages of
the process (receipt and master docket; case development; scheduling and ALJ review;
and post-development, decision writing and disposition). Twenty-one of the
22 HODs responded that their HOs use processing-time benchmarks to manage the




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                7
hearing workload. Of the 21 applicable HOs, benchmarks used in 19 HOs are the same
as the national benchmarks. The remaining 2 HOs use their own benchmarks or other
benchmarks.

EMPLOYEE JOB SATISFACTION

Overall Satisfaction with the HPI Plan

Fifty percent of the managers were satisfied with the HPI plan. Another 33.3 percent
stated they were not satisfied. The non-managers were largely dissatisfied with the HPI
plan. Here, 67.7 percent stated they were not satisfied and only 11.3 percent stated
they were satisfied. The others remained neutral (see Appendix F, page F-8).

Perceived Job Satisfaction Within HOs

Forty-three percent of the managers viewed the job satisfaction level within the HO as
worse, while 34.5 percent viewed job satisfaction as better. Of the non-managers,
73.3 percent viewed the job satisfaction as worse, while only 9.3 percent viewed it as
better (see Appendix F, page F-9).

Individual Morale under HPI

The managers were split with respect to their own morale because of HPI. While
42.2 percent stated that their morale was high, 25.3 percent considered it low. The
majority of non-managers, 61.6 percent, stated that their morale was low while
10.8 percent considered it high. The rest considered their morale as moderate (see
Appendix F, page F-10).

CASE PROCESSING

Receipt, Case Assignment, and Screening

Distribution of Incoming Mail to Processing Group - The revised mail process involves
including the claimant's name and code for the assigned group on each page of every
document generated and mailed. This is intended to promote efficiency and
accountability by each group. The receipt and distribution of incoming mail may be
assigned to the LCT, SCT or CT (Technicians). When the documents are returned to
the HO, the claimant's name and code allow the Technicians to associate the
documents with the file even if they are separated from the cover page. We asked the
Technicians to rate the revised mail process on a scale of one to five with five being the
highest rating. Twenty-four percent of the Technicians gave the revised mail process a
rating of one. The revised mail process was viewed as not effective in routing mail to
the proper processing group. More than one-fourth of the Technicians said that the
revised mail process is not used in their offices.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)              8
On-the-Record Decisions - SAAs are responsible for reviewing and recommending
possible On-The-Record (OTR) decisions. The ALJs make the final OTR decisions.
Forty-six percent of the HOCALJs and 65 percent of the ALJs said the number of OTR
decisions is the same in comparison to pre-HPI. Although the SAA recommends
possible OTR decisions, 55 percent of the ALJs said that they sometimes disagree with
the proposed OTR decisions in comparison to pre-HPI.

Pre-Hearing Analysis and Development

Pre-hearing Development - Pre-hearing development has changed under HPI. The HPI
plan moves analytical and screening tasks to the front end of the process to maximize
the ALJ's judicial functions: hearings and decision-making. Fifty-eight percent
responded that before HPI was implemented, cases were not fully developed before
assigning the case to ALJs. The other 42 percent of the respondents said that before
HPI was implemented, their office developed a case fully before assigning it to an ALJ.
However, HPI procedures for pre-hearing development are different from pre-HPI
procedures.

Development Questionnaire - The development questionnaire is the first step in
certifying a case as "Ready-to-Hear" before assigning it to an ALJ. "Ready-to-Hear"
means the required evidentiary development is complete. SCTs and CTs mail the
development questionnaire to the claimant or appointed representative using the
automated Pre-hearing Development Notice program and diary the case for 2 weeks.
Forty-seven percent of the SCTs and 37 percent of the CTs said that the claimants and
representatives frequently do not respond within the allotted 2-week period. It was
thought that the development questionnaire would eliminate postponements. However,
31 percent of the SCTs and 54 percent of the CTs do not know if the development
questionnaire eliminates postponements.

Scheduling Hearings

Rotation of Office-Wide Coordinator - Thirty-two percent of the Technicians said that the
office-wide scheduling coordinator was not helpful and a little more than one-third said
assigning an office-wide scheduling coordinator is not used in their HO. The
coordinator is responsible for:

   •   Scheduling formal pre-hearing conferences;

   •   Scheduling informal development conferences; and

   •   Arranging individual appearances at hearings.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)             9
Automated Hearing Room Calendar - The automated hearing room calendar is used to
keep track of individual appearances at hearings and is expected to eliminate
scheduling conflicts, delays, postponements, confusion, and overbooking. Based on
the survey response, the majority of the Technicians said that the automated hearing
room calendar is not used.

Post Hearing Activity

Hand-offs are on the Increase - Seventy-four percent of the LCTs stated that the
number of hand-offs (work handed to another person) under HPI were higher or much
higher in comparison to pre-HPI. Sixteen percent said that the number of hand-offs was
the same, while 10 percent stated that there were fewer hand-offs under HPI than
before HPI. Some employees other than LCTs provided comments concerning hand-
offs. Selected comments from these employees are included in Appendix G.

Decision Writing - To maximize the benefit of the AA and PA's familiarity with the facts
and issues of a case, HPI provides that the GS will generally assign cases for decision
writing to the same AA or PA who certified the case as "Ready-to-Hear." Only 3 percent
of the AAs said that they always received the same cases for decision writing they had
previously certified as "Ready-to-Hear," while 27 percent said that they never write
decisions for cases they personally certified as "Ready-to-Hear." Other AAs said that
they frequently (13 percent) or sometimes (57 percent) received cases for decision
writing that they certified as "Ready-to-Hear."




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           10
                                                    Conclusions and
                                                   Recommendations
The survey results and employee comments highlighted areas that may need
improvement during full implementation of the HPI plan. These areas include staffing,
training, and ALJ instructions. Improvements are also needed in the staff's perception
of quality of service, processing efficiency, and job satisfaction. To make HPI
successful, staff have to believe that the New Process will bring about improvements.
To promote improvements, we recommend that the SSA:

1. Establish a timeframe by which HOs should implement all parts of the HPI Plan.

2. 	 Reassess training needs for non-managers and ensure they have an adequate
     understanding of OHA's expectations under HPI.

3. 	 Re-evaluate the staffing needs for technicians and clerical staff within each HO to
     maximize productivity.

4.	 Perform an evaluation of standing orders, or the lack of standing orders, in each
   office to ensure employees have clear and uniform instructions from ALJs within
   each processing group.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. (See
Appendix H for SSA’s comments.)




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                11
                                            Appendices





Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                                                                         Appendix A

NEW PROCESS OFFICE STRUCTURE
                                                Hearing Office Chief
                                              Administrative Law Judge

 ALJ        ALJ        ALJ        ALJ                                           ALJ         ALJ        ALJ        ALJ



                                               Hearing Office
                                                 Director




                       Group                  Senior            Senior                Group
                                             Attorney          Attorney
                     Supervisor              Adviser           Adviser              Supervisor


Attorney Advisers             Lead Case Technician            Lead Case Technician           Attorney Advisers
Paralegal Analysts            Senior Case Technicians         Senior Case Technicians        Paralegal Analysts
                              Case Technicians                Case Technicians
Rotational Assignments from
Ranks of Case Technicians
                                        = Supervisor                      Hearing Office System Administrator
   Master Docket
   Mail Clerk                           = Bargaining Unit Position            Management Services Assistant
   Receptionist
   Scheduling Coordinator                                                               Permanent Positions
                                        = Non-bargaining Position
                                                                                                                  April 2000
                                                                              Appendix B



             LIST OF THE 37 HEARING OFFICES INCLUDED IN PHASE 1

    Boston Region                                 Dallas Region
    Manchester, NH                                Alexandria, LA
    Providence, RI                                Fort Worth, TX
                                                  New Orleans, LA
                                                  Metairie, LA
                                                  Shreveport, LA

    New York Region                               Kansas City Region
    Albany, NY                                    Springfield, MO
    Brooklyn, NY                                  St Louis, MO
    Syracuse, NY                                  Creve Coeur, MO

    Philadelphia Region                           Denver Region
    Elkins Park, PA                               Denver, CO
    Harrisburg, PA
    Johnstown, PA
    Philadelphia, PA
    Pittsburgh, PA
    Wilkes-Barre, PA

    Atlanta Region                                San Francisco Region
    Birmingham, AL                                Downey, CA
    Charleston, SC                                Los Angeles, CA (Downtown)
    Florence, AL                                  Los Angeles, CA (West)
    Jackson, MS                                   Pasadena, CA
    Lexington, KY
    Mobile, AL
    Montgomery, AL

    Chicago Region                                Seattle Region
    Detroit, MI                                   Seattle, WA
    Flint, MI
    Grand Rapids, MI
    Lansing, MI
    Oak Park, MI




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                                              Appendix C


Survey Questions
Questions We Asked All Employees in the Survey

1. How long have you been working in the Office of Hearings and Appeals (OHA)?
2. 	 Have you been working at this hearing office since your office began Hearing
     Process Improvement (HPI)?
3. Did you receive the HPI Process Orientation Training?
4. 	 Relative to when your office started HPI, when was your HPI Process Orientation
     Training completed?
5. Was your training conducted in one day?
6. In general, how helpful was the HPI Process Orientation Training?
7. Did you receive training to supplement the HPI Process Orientation Training?
8. Do you need further training?
9. Did your responsibilities change under HPI?
10. Prior to HPI, did your office fully develop the case before assigning it to an
    Administrative Law Judge (ALJ)?
11. If your office does not meet the production goals, which of the following would be
    needed? Check all that apply: Increased staffing at the hearing office (Judicial,
    management, clerical, attorney/paralegal, case technicians); overtime; decision
    writing assistance; contribution from employees outside OHA; case pulling
    assistance; other; none.
12. Overall, how would you rate the quality of service for the claimants under HPI
    compared to pre-HPI?
13. Compared to pre-HPI, how would you rate the overall job satisfaction in this hearing
    office?
14. How would you rate the overall efficiency of processing under HPI compared to pre-
    HPI?
15. Overall, how would you rate your morale as a result of the HPI Plan?
16. How would you rate your understanding of OHA’s expectations for the hearing office
    under HPI?
17. Overall, how satisfied are you with the HPI Plan?




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)              C-1
Additional Questions We Asked Hearing Office Chief Administrative Law Judges

1. What date did your hearing office begin HPI? Please provide the month/day/year.
2. 	 What were your expectations for your hearing office? Please be specific and
     provide quantitative data when applicable.
3. 	 Of your expectations for this hearing office, which were fulfilled? Please provide an
     explanation if necessary.
4. What parts of the HPI Plan have you adopted?
5. What parts of the HPI Plan have you not adopted?
6. 	 In the implementation of the parts of HPI that your office has adopted, how much is
     completed?
7. Has a formalized transition plan been implemented in your hearing office?
8. Does your hearing office follow general standing orders?
9. Does your hearing office follow specific standing orders?
10. Are you receiving either new or expanded Management Information reports that you
    did not receive prior to HPI?
11. Under HPI, did your office modify existing reports/databases or create any new
    reports/data bases? If yes, please explain what was created or modified.
12. On a scale of 1-5 (5 being the highest), how effective do you feel the formal pre-
    hearing conferences are in clarifying the issues specific to your request?
13. Overall, how heavy is your office caseload under HPI in comparison to before HPI?
14. Overall, how would you rate the decisional accuracy under HPI compared to pre-
    HPI?
15. Prior to scheduling a hearing, how often do you find it necessary to further develop a
    case?
16. After the hearing is held, how often do you find it necessary to further develop the
    case?
17. How frequently are On-The-Record (OTR) decisions used in comparison to before
    HPI?

Additional Questions We Asked ALJs

1. 	 Prior to scheduling a hearing, how often do you find it necessary to further develop a
     case?
2. 	 After the hearing is held, how often do you find it necessary to further develop the
     case?
3. 	 Overall, how would you rate the decisional accuracy under HPI compared to pre-
     HPI?


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                 C-2
4. Of the following, who signs the OTR decisions? Check all that apply.
5. How frequently are OTR decisions used in comparison to before HPI?
6. 	 How often do you disagree with the proposed OTR decision in comparison to before
     HPI?
7. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the formal pre-
     hearing conferences are in clarifying the issues specific to your request?


Additional Questions We Asked the Hearing Office Directors

1. 	 Does your hearing office use processing time benchmarks to manage the hearing
     workload?
2. 	 Are the benchmarks used in your hearing office the same as the national
     benchmarks?
3. 	 If you are not using national benchmarks, then what type of benchmarks are you
     using?
4. How many union officials work at your hearing office?
   For the following chart, please fill in the corresponding position and amount of
   time the individual uses for union business (100 percent, 75 percent, 50
   percent, 25 percent, etc.). Please do not give the individual’s name.
         Union Official #                   Position               Time Used
                1
                2
                3
                4
                5
              Other

1. 	 Of the following, who makes changes to the information in the Hearing Office
     Tracking System? Check all that apply: Hearing Office Chief Administrative Law
     Judge (HOCALJ), ALJ, Hearing Office Director (HOD), Group Supervisor (GS),
     Senior Attorney Advisor (SAA), Lead Case Technician (LCT), Senior Case
     Technician (SCT), Case Technician (CT), Attorney Advisor (AA), Paralegal Analyst
     (PA), Hearing Office Systems Administrator (HOSA), Management Services
     Assistant (MSA), Other, All of the above.
2. 	 What portion of the local management labor issues was resolved prior to your office
     implementing HPI?
3. How has HPI affected your office’s use of overtime?
4. What date did your hearing office begin HPI? Please provide the month/day/year.
5. 	 From the date that your hearing office started HPI to June 30, 2000, what
     percentage of the office dispositions were Medicare?



Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)               C-3
6. 	 How do you feel the Medicare cases affect your hearing office? Check all that
     apply.
7. 	 From the date that you started HPI to June 30, 2000, what percentage of your
     caseload involved a claimant who is not English speaking?
8. Are you receiving prototype cases from Disability Determination Services?
9. 	 Due to the implementation of Phase 1, how many pre-HPI cases were crosswalked
     for HPI?
10. From the date that you started HPI to June 30, 2000, what percentage of the cases
    heard was pre-HPI?
11. Is your hearing office monitoring the dispositions issued? If yes: How frequently is
    the disposition rate assessed? Weekly, Monthly, Randomly, or Other.
12. How would you rate the employees’ understanding of the expectations for the
    hearing office under HPI?
13. How would you rate the morale of the employees concerning the HPI Plan?


Additional Questions We Asked the GSs

1. 	 Do you complete any of the work for either the AA or the PA? If yes: What extent
     has performing the duties of the AA or PA hindered you from doing your job?
2. 	 Do you complete any of the work for either the LCT, SCT, or CT? If yes: What
     extent has performing the duties of the LCT, SCT, or CT hindered you from doing
     your job?
3. If you do assist individuals in completing their work, what is the effect on your office?
4. If you do assist individuals in completing their work, what do you see as the cause?
5. How helpful are the “Standing Orders” (general or specific) for your group?
6. 	 How often do you request a listing of cases in each stage, sorted by the number of
     days in that particular stage and the age of the case?
7. 	 If you regularly request a listing of cases in each stage, how helpful has it been for
     you in distributing the workload and regulating the pace of the case?
8. How frequently do you run an O3 report?

Additional Questions We Asked AAs

1. 	 When assessing whether the medical history is complete, how often do you find that
     there is missing information?
2. 	 What medical source does not provide adequate information when you first request
     the evidence? Check all that apply: Treating Sources; Sources of Record;
     Consultative Examiners; or None.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)               C-4
3. 	 Of the medical records, which is most frequently missing information? Choose only
     one: Medical History; Clinical Findings; Laboratory Findings; Diagnosis; Treatment
     and/or Progress; Statement of Abilities; or None.
4. 	 On a scale of 1-5 (5 being the highest), how strong of an effect do you feel the
     language difference has on a case in which the claimant is not English speaking?
5. 	 How frequently is there difficulty assigning a translator for a non-English speaking
     claimant?
6. 	 Of the following, who signs the OTR decisions? Check all that apply: ALJ; SAA; AA;
     PA; and/or Other.
7. How helpful are the “Standing Orders” (general or specific) for you?
8. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the formal pre-
     hearing conferences are in clarifying the issues specific to the ALJ request?
9. 	 Approximately how long does it take for you to conduct a pre-hearing analysis (early
     screening)?
10. When receiving cases for decision writing, how often are they cases that you have
    previously certified as ready-to-hear?


Additional Questions We Asked Lead CTs

1. 	 On a scale of 1-5 (5 being the highest), how effective do you feel that the automated
     hearing room calendar has been in eliminating scheduling conflicts?
2. 	 On a scale of 1-5 (5 being the highest), how effective do you feel that the automated
     hearing room calendar has been in eliminating delays?
3. 	 On a scale of 1-5 (5 being the highest), how effective do you feel that the automated
     hearing room calendar has been in eliminating postponements?
4. 	 On a scale of 1-5 (5 being the highest), how effective do you feel that the automated
     hearing room calendar has been in eliminating confusion?
5. 	 On a scale of 1-5, (5 being the highest) how effective is the revised mail process in
     routing mail to the intended processing group?
6. 	 How helpful has the rotation of the office-wide scheduling coordinator assignment
     been in reducing conflicts, delays, postponements, and confusion?
7. Compared to pre-HPI, how much post-hearing development do you conduct?
8. How often do you perform the duties of the SCT or the CT?
9. 	 To what extent has performing the duties for the SCT or CT hindered you from doing
     your job?
10. Are you required to have the GS pull specific reports you request?
11. As you have observed, how has the amount of "hand-offs" (work handed to another
    person) changed in comparison to pre-HPI?


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                 C-5
12. How helpful are the "Standing Orders" (general and specific) for you?
13. How efficient is the new hearing process in comparison to pre-HPI?


Additional Questions We Asked SCTs

1. 	 On a scale of 1-5, (5 being the highest) how effective do you feel the automated
     hearing room calendar has been in eliminating scheduling conflicts?
2. 	 On a scale of 1-5, (5 being the highest) how effective do you feel the automated
     hearing room calendar has been in eliminating delays?
3. 	 On a scale of 1-5, (5 being the highest) how effective do you feel the automated
     hearing room calendar has been in eliminating postponements?
4. 	 On a scale of 1-5, (5 being the highest) how effective do you feel the automated
     hearing room calendar has been in eliminating confusion?
5. 	 On a scale of 1-5, (5 being the highest) how effective do you feel the formal pre-
     hearing conferences are in clarifying the issues specific to the ALJ request?
6. 	 On a scale of 1-5, (5 being the highest) how effective is the revised mail process in
     routing mail to the intended processing group?
7. 	 When/if you are unsure of how to proceed with the case, how often are you able to
     obtain information to assist you?
8. 	 How often does a claimant or representative not respond to the Pre-Hearing
     Development Notice/Development Questionnaire in the allotted two weeks?
9. 	 On a scale of 1-5 (5 being the highest), how effective is the Development
     Questionnaire in eliminating postponements?
10. Do you verify the information in the Hearing Office Tracking System (HOTS)? If
    yes: How often do you find a discrepancy with HOTS and the information found in
    the case file?
11. How helpful are the “Standing Orders” (general or specific) for you?
12. In comparison to pre-HPI, how much pre-hearing development do you conduct?
13. To what extent has the additional technical and clerical duties in your position
    description under HPI hindered you from developing cases (i.e., reviewing cases,
    analyzing cases, marking exhibits and ensuring that the case is ready for hearing)?


Additional Questions We Asked CTs


1. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the automated
     hearing room calendar has been in eliminating scheduling conflicts?
2. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the automated
     hearing room calendar has been in eliminating delays?


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)               C-6
3. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the automated
     hearing room calendar has been in eliminating postponements?
4. 	 On a scale of 1-5 (5 being the highest), how effective do you feel the automated
     hearing room calendar has been in eliminating confusion?
5. 	 On a scale of 1-5 (5 being the highest), how effective is the revised mail process in
     routing mail to the intended processing group?
6. 	 When/if you are unsure of how to proceed with the case, how often are you able to
     obtain information to assist you?
7. 	 How helpful has the rotation of the office-wide scheduling coordinator assignment
     been in reducing conflicts, delays, postponements, and confusion?
8. 	 How often does a claimant or representative not respond to the Pre-Hearing
     Development Notice/Development Questionnaire in the allotted two weeks?
9. 	 On a scale of 1-5 (5 being the highest), how effective is the Development
     Questionnaire in eliminating postponements?
10. How frequently is there difficulty assigning a translator for a non-English speaking
    claimant?
11. Compared to pre-HPI, how much post-hearing development do you conduct?
12. Do you verify the information in HOTS? If yes: How often do you find a discrepancy
    with HOTS and the information found in the case file?
13. How helpful are the “Standing Orders”(general or specific) for you?




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                C-7
                                                                                   Appendix D


              Number of Employees by Position Type Who
                      Responded to Our Survey
            Position               Universe1               Number of                Percent
                                                           Responses              Responding
      HOCALJ                            36 2                     24                    66.67
      HOD                                37                      22                    59.46
      GS                                 85                      39                    45.88
      ALJ                              248                      121                    48.79
      AA                               150                       72                    48.00
      LCT                                85                      50                    58.82
      SCT                              406                      174                    42.86
      CT                               279                      107                    38.35
             Totals                  1,326                      609                    45.93




        HOCALJ
                                                                        66.67

              HOD
                                                             59.46

                GS
                                                45.88

               ALJ
                                                   48.79

                AA
                                                 48.00

               LCT
                                                            58.82

              SCT
                                             42.86

                CT
                                        38.35

                    0.00              20.00             40.00              60.00               80.00

1
    The HO or OHA Regional Office provided the figures used in the universe.
2
    One HOCALJ serves in this capacity in two HOs. He is the Acting HOCALJ for one of the two HOs.


Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                                              Appendix E

Survey Results for the First 17 Questions (Percentages)
                                                                       Non-         All
                                                       Managers
                                                                     Managers    Employees

 OHA Employment
 1. Length of time working in OHA
       Less than one year                                   9.4           1.5        2.6
       1 year to less than 5                                9.4          22.8       20.9
       5 years to less than 10                             27.1          32.7       31.9
       10 years to less than 20                            29.4          31.7       31.4
       20 years or more                                    24.7          11.3       13.2
 2. Worked in HO since beginning of HPI
       Yes                                                 97.6          97.5       97.5
       No                                                   2.4           2.5        2.5
 Training
 3. Received HPI Process Orientation Training
       (Orientation Training)
         Yes                                               97.6          96.2       96.4
          No                                                2.4           3.8        3.6
 4. When was the Orientation Training
       completed relative to the HO starting HPI?
         2 months or more prior                            22.2          39.3       36.9
         1 to 2 months prior                               53.1          39.3       41.3
         Less than 1 month prior                           21.0          10.0       11.5
         Less than 1 month after                            0.0           2.4        2.1
         1 to 2 months after                                0.0           3.3        2.8
         Other                                              3.7           5.7        5.4
 5a. Length of Orientation Training
         1 day                                              3.7           7.1        6.6
         More than a day                                   96.3          92.9       93.4
 5b.If more than a day, number of days to
       complete Orientation Training: (Note1)
         2 days                                            23.7          30.9       29.8
         3 days                                            59.2          29.9       34.5
         4 days                                            13.2          12.2       12.3
         5 days                                             3.9          19.0       16.6
         Other                                              0.0           8.0        6.8



Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)            E-1

                                                                       Non-        All
                                                       Managers
                                                                     Managers   Employees



 6. How helpful was HPI Orientation Training
         Helpful or Very Helpful                           63.1          30.5      35.1
         Neutral                                           11.9          28.5      26.1
         Not Helpful                                       23.8          37.2      35.4
         Not Applicable                                     1.2           3.8       3.4
 7a. Received training to supplement HPI
       Orientation Training
          Yes                                              71.1          44.4      48.1
          No                                               28.9          55.6      51.9
 7b. If yes, type of training provided (Note 1)
          Local (or Group)                                 44.7          34.9      36.3
          Personalized (One on One)                         9.4           4.8       5.4
          Other                                            32.9           7.4      11.0
 8a. Need additional training
         Yes                                               36.9          41.7      41.0
         No                                                63.1          58.3      59.0
 8b. If yes, type of training needed (Note 1)
         Position Description                               9.4          16.0      15.1
         HOTS                                              15.3           8.4       9.4
         Software                                          21.2          26.9      26.1
         Other                                             14.1          11.1      11.5
 Case Processing
 9a.   Responsibilities changed under HPI
         Yes                                               80.5          76.1      76.7
          No                                               19.5          23.9      23.3
 9b. If responsibilities did not change, how
      much work do you have under HPI in
      comparison to pre-HPI: (Note 1)
         More                                              25.0          39.7      37.8
         Same                                              66.7          44.9      47.8
         Less                                               8.3          15.4      14.4
 10a. Case development prior to HPI
         The case was not fully developed                  69.5          56.5      58.3
         before assigning it to an ALJ
        The case was fully developed                       30.5          43.5      41.7
         before assigning it to an ALJ




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           E-2
                                                                       Non-        All
                                                       Managers
                                                                     Managers   Employees
 10b. If case was fully developed before
      assigning it to the ALJ, how different were
      early development procedures in
      comparison with pre-HPI: (Note 1)
         Different                                        52.1          71.3       69.3
         Same                                             13.0          14.1       14.0
         Not different                                    34.7          14.6       16.7
 11a. If production goals are not met, what is
      needed? (Note 2)
         Increased staffing                               80.0          83.4       82.9
         Overtime                                         25.9          35.7       34.3
         Decision writing assistance                      23.5          18.7       19.4
         Contribution from employees outside               4.7           4.0        4.1
         OHA
         Case pulling assistance                          56.5          40.5       42.7
         Other                                            16.5          18.7       18.4
         None                                              8.2           1.0        2.0
 11b. Type of staffing most needed (Note 2)
         Judicial                                         22.4           7.1        9.2
         Management                                        2.4           2.5        2.5
         Clerical                                         36.5          42.6       41.7
         Attorney/Paralegal                               34.1          23.9       25.3
         Case Technicians (LCT, SCT or CT)                60.0          65.6       64.9
 Comparative Conditions: HPI versus Pre-
 HPI
 12. Quality of service for claimants
        Better                                            35.7          14.9       17.8
        Same                                              34.5          32.1       32.4
        Worse                                             23.8          46.3       43.2
        Don't know                                         6.0           6.7        6.6
 13. Job Satisfaction
        Better                                            34.5           9.3       12.8
        Same                                              19.8          15.3       15.8
        Worse                                             43.2          73.3       69.2
        Don't Know                                         2.5           2.1        2.2
 14. Efficiency of Processing
        Better                                            34.2           8.4       12.0
        Same                                              20.7          17.3       17.7
        Worse                                             40.2          69.0       65.1
                                                           4.9           5.3        5.2
        Don't Know



Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           E-3
                                                                       Non-        All
                                                       Managers
                                                                     Managers   Employees

 Morale, Expectations, & Satisfaction
 15. One's own morale as a result of HPI
       High                                                42.2          10.8      15.2
       Moderate                                            32.5          27.6      28.3
       Low                                                 25.3          61.6      56.5
 16. Understanding of OHA's expectation for
     hearing office under HPI
       High                                                86.9          53.5      58.3
       Moderate                                            10.7          28.3      25.8
       Low                                                  2.4          18.2      15.9
 17. Overall satisfaction with HPI Plan
       Satisfied                                           50.0          11.3      16.7
       Neutral                                             16.7          21.0      20.4
       Not Satisfied                                       33.3          67.7      62.9

Note 1: Responses were predicated on the response to the preceding question;
        therefore, the percentages will not total 100 percent.

Note 2: Employees could select more than one answer; therefore, the percentages will
        not total 100 percent.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           E-4
                                                                                Appendix F


                    Percentage of OHA Phase 1 Work Force
                             Years of Experience


   20 years or                           11.3
      more                                                   24.7


   10 years to                                                          31.7
  less than 20                                                       29.4


5 years to less                                                           32.7
   than 10                                                        27.1


   1 year to to                                            22.8
   less than 5                       9.4


   Less than 1           1.5
      year                           9.4



                     0              10              20              30             40


                                   Managers          Non-Managers


          Percentage of staff with at least 5 years of experience:
            Managers (HOCALJs, HODs, and GSs)                                  81.2 percent
            Non-managers (ALJs, AAs, SCTs, LCTs, CTs)                          75.7 percent




 Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                  F-1
                        How Helpful was the HPI Training?

                                 (Percentages)




                                                       37.2
 Not Helpful

                                         23.8




                                             28.5
      Neutral

                               11.9




 Helpful or
                                    30.5

Very Helpful
                                                            63.1




                    0              20                  40           60          80

                                      Managers          Non-Managers



       Note: Percentages will not add to 100 percent because those
       answering "not applicable" were not included in the chart.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           F-2

           How Would You Rate Your Understanding of OHA's

             Expectations for the Hearing Office under HPI?

                             (Percentages)




                              18.2
     Low

                 2.4




                                     28.3
Moderate

                       10.7




                                                       53.5
    High

                                                                                86.9



             0             20               40            60             80            100


                               Managers             Non-Managers




  Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                 F-3

                 If your office does not meet the production

                    goals, which of the following would be

                           needed? (Percentages)



                      Increased staffing
                                                         83



              Case pulling assistance
                                      42.7



                                 Overtime
                           34.3



          Decision writing assistance
                      19.4



                                     Other
                18.4


Contribution from employees outside

                                                  4.1
                OHA



                                      None
       2


                                              0       10   20   30   40      50    60   70   80    90



             Note: Employees could select more than one answer; therefore,
             the percentages will not total 100 percent




    Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                    F-4
                Hearing Office Positions Cited as Most

                  Needed to Meet Production Goals

                            (Percentages)


Case Technicians                                                                     66
 (LCT, SCT, CT)                                                                 60


                                                                 43
           Clerical
                                                          36.5


                                              24
Attorney/Paralegal
                                                         34.1


                                7
           Judicial
                                             22.4


                          3
     Management
                          2.4


                      0         10      20          30      40        50       60     70


                                     Managers            Non-Managers

             Note: Employees could select more than one answer; therefore,
             the percentages will not total 100 percent




 Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                F-5

        How Would You Rate the Quality of Service for the

          Claimants Under HPI Compared to Pre-HPI?

                       (Percentages)


                                                          35.7
   Better/Much
                                       17.3
     Better                6.7


                                                          34.5
           Same                                         32.3
                                                       31.4


                                              23.8
  Worse/Much
                                                                  43
    Worse                                                                      57.6


                   0        10         20         30        40         50      60          70


                                 ALJs         Other Staff          Managers


  Note: Percentages will not add to 100 percent because those
  answering "don't know" were not included in the chart.

                                 Universe Total        Number Who           Number Who Rated
                                   (Phase 1            Returned the           the Quality of
                                    Offices)             Survey                  Service
ALJs                                  248                   121                     113
Other Staff (AA, LCT,                 920                   403                     364
SCT, CT)
Managers (HOCALJ,                     158                    85                       79
HOD, GS)




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                  F-6

                How would you rate the overall efficiency of

                processing under HPI compared to pre-HPI?

                              (Percentages)



 Better/Much
                                          34.2
    Better
                  8



                                           20.7
         Same

                                      17



 Worse/Much
                                                  40.2
   Worse
                                                                             69



                   0                  20                  40                   60                 80

                                       Non-managers                  Managers

               Note: Percentages will not add to 100 percent because those
               answering "don't know" were not included in the chart.


                                                  Universe Total     Number Who     Number Who
                                                    (Phase 1         Returned the    Rated the
                                                     Offices)          Survey       Efficiency of
                                                                                     Processing
Non-managers (ALJ, AA, LCT, SCT, CT)                  1,168               524              483
Managers (HOCALJ, HOD, GS)                              158                85               78




 Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                F-7
                 Overall, How Satisfied Are You With the HPI

                            Plan? (Percentages)




                                                    33.3
    Not Satisfied

                                                                              67.7




                                         16.7
           Neutral

                                            21




                                                                  50
         Satisfied

                                  11.3




                      0                  20            40               60           80

                                            Non-Managers       Managers




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)            F-8

           Compared to pre-HPI, how would you rate the overall

                 job satisfaction in this hearing office?

                             (Percentages)


                                                      34.5
Better/Much

                              10.6
  Better
               5.1


                                        19.8
       Same
                     13.6
                                        20.5


                                                               43.2
Worse/Much

                                                                                                 73.7
  Worse
                                                                                       71.8



                 0                   20                   40                    60                  80

                                     ALJs       Other Staff           Managers


             Note: Percentages will not add to 100 percent because those
             answering "don't know" were not included in the chart.




                                         Universe Total        Number Who            Number Who
                                           (Phase 1            Returned the           Rated Job
                                            Offices)             Survey              Satisfaction
   ALJs                                        248                    121                114
   Other Staff (AA, LCT, SCT, CT)              920                    403                388
   Managers (HOCALJ, HOD, GS)                  158                    85                  79




  Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                    F-9
                 Overall, how would you rate your morale as
                 a result of the HPI Plan? (Percentages)




                                           25.3
           Low

                                                                              61.6




                                                  32.5
    Moderate

                                            27.6




                                                          42.2
          High

                             10.8




                  0                 20               40                60            80

                                         Non-Managers       Managers




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)           F-10

                                                                              Appendix G

Selected Employee Comments
1. Need for Additional Staff

Managerial Comments

We have three Senior Case Technicians (SCT) in an office with six Administrative Law
Judges (ALJ). In essence, we have one Case Technician (CT) to type cases for six
ALJs and she is required to rotate into other duties, including phone and reception.

Staffing of lower level positions (i.e., receptionist & mail clerks) would allow the SCTs
and CTs to process HPI cases quicker. Don't waste their talent.

We also need more CTs, SCTs, and Attorney/Paralegals in order for HPI to work (and
we cannot hire employees because we do not have space in our office).

To have been effective HPI should have been implemented with full staffing in each
office, rather than trying to make do with existing staff.

Non-managerial Comments

HPI would work for us if we can hire additional staff at the case-technician and senior-
case-technician levels. Prior to HPI, people left and have not been replaced. With HPI,
we need many, many more employees.

The process cannot function efficiently with a ratio of less than one CT per ALJ.
Promotions are great, but clerical positions have not been filled. Cases are not
distributed evenly in each group. Group "C" has three clerks/technicians and get as
many cases or more than group "B" and group "A". Group "A" has six technicians and
so does group "B".

2. Use of Standing Orders

Managerial Comments

The ALJs have had difficulties adapting to HPI as well. They continue to issue specific
standing orders for the group, rather than general standing orders.

Standing instructions by the ALJs in addition to specific instructions are too detailed and
confusing; ALJs require the sky under HPI.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                 G-1
Non-managerial Comments

No standing orders have been issued by the ALJs in my group.

I work in a group for three judges and none of them does things the same way. Each
one still feels like he has a unit and does things his own way. This really makes it hard
on staff doing things in HPI.

Not all ALJs do general standing orders; they are not consistent. They do their own
thing. I do not feel this office (as a whole) complies with the HPI plan.

3. Handoffs are on the Increase

Managerial Comments

Establishing case ownership can sometimes lead to many handoffs (e.g., to analysts,
back to owner of case for development, back to the analyst when development comes
in).

This process has significantly increased “handoffs” rather than decreased them.

Non-managerial Comments

Appears HPI created more hand-offs rather than less due to always using a middleman
(LCT or GS) for handling cases.

HPI has increased the number of hand-offs. Too many people handle the files, too
many mistakes and too many errors.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)            G-2
                                                                              Appendix H


Agency Comments





Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)
                                                         ~(;0.)-" SEC&~
                                                        ~ ~ ~""~
                                                               US~.~
                                                        ,      1""IJ~.t
                                                             "'1sT?J"

                                         SOCIAL              SECURITY


MEMORANDUM


           May 29,2001                                                                Refer To: SIJ-3



To         JamesG. Ruse, Jr.
           Inspector General

                                                    ~                -
           Larry G. Massanari
               o         ..                     I




Subject:                    ,   '...    .(OIG)Draft      Report, "Assessment   of the Hearings   Process
           Improvement   Plan Phase I" (A-O6-00-20051)-INFORMATION



           We appreciateOIG's efforts in evaluatingthe results of the Office of Hearings and Appeals'
           implementation ofPhase I of the HearingsProcessImprovement (HPI) plan. Our comments on
           the draft report and the specific recommendationsare attached.

           Pleaselet us know if we may be of further assistance. Staff questionsmay be referred to
           Robert Berzanski on extension 52675.

           Attachment:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “ASSESSMENT OF THE HEARINGS PROCESS IMPROVEMENT PLAN:
PHASE I" (A-06-00-20051)

During the time period in which OIG was preparing the subject report, SSA proceeded with the
implementation of Phases 2 and 3 of the Hearings Process Improvement (HPI) plan. We note that
information in the OIG report is consistent with areas of concern that we identified during our
early monitoring and internal reviews of Phase 1. We incorporated “lessons learned” in Phase 1
to provide a smoother transition as we implemented Phases 2 and 3, and we are confident that
many of the hearing office (HO) employees' concerns expressed in the OIG survey have been
addressed. We appreciate your feedback and will rely on OIG for continued assistance in our
evaluation of the HPI initiative. Our specific comments for each recommendation follow:

Recommendation 1

Establish a timeframe by which HOs should implement all parts of the HPI Plan.

Comment

We agree. A specific schedule was established to implement HPI in HOs. For Phases II and III,
the responsible management officials were required to certify, within 2 weeks of rollout of each
HO, that key elements of the plan were in place.

Recommendation 2

Reassess training needs for non-managers and ensure they have an adequate understanding of
OHA's expectations under HPI.

Comment

We agree. As part of our planning efforts for Phases II and III, we held weekly teleconference
meetings with local and regional management involved in the Phase I implementation. We were
able to identify implementation issues and some additional training needs from those meetings
and from other assessment tools. We changed the timing of new process orientation for
Phases II and III to deliver it “just in time.” We provided skills training for non-managers as
soon as practicable after selection, and that effort continues for those employees promoted more
recently. Additionally, we plan to conduct a training needs assessment within the next 4 months
to identify supplemental and outgoing training needs.

A video presentation, hosted by the Associate Commissioner for Hearings and Appeals and the
Chief Administrative Law Judge, was delivered to all HO employees in March 2001. Its purpose
was to address employees' concerns, focus on the intent of HPI and emphasize that the plan is
flexible enough to respond to workload changes and enable us to meet our goals. Our
communication with employees about the new business process continues in written form and
via executive management presentations and discussions in HOs around the country.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                  H-2
Recommendation 3

Re-evaluate the staffing needs for technicians and clerical staff within each HO to maximize
productivity.

Comment

We agree. Staffing needs are reviewed on an ongoing basis. The needs of individual offices
depend on factors that are unique to each office, such as the number of retiring employees and
the number of employees promoted to new positions under HPI. Those specific needs are
evaluated on the local and regional levels, where SSA management have authority to make
certain personnel decisions as necessary.

Recommendation 4

Perform an evaluation of standing orders, or the lack of standing orders, in each office to ensure
employees have clear and uniform instructions from ALJs within each processing group.

Comment

Management in the OHA regional offices and HOs review the use of standing orders on an
ongoing basis as part of our continuous improvement activity. However, while standing orders
can be very helpful and they are encouraged, their development is voluntary. We will continue
to encourage their development and use as we look to maximize the potential of our new
business process.




Assessment of the Hearings Process Improvement Plan-Phase 1 (A-06-00-20051)                     H-3
                                                                             Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Paul Davila, Deputy Director, (214) 767-6317


Acknowledgments
In addition to those named above:

   Lela Cartwright, Senior Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-06-00-20051.




Assessment of the Hearings Process Improvement Plan-Phase1 (A-06-00-20051)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
